 Former AmeriCorps Member Sentenced for Education Award Fraud

Following a guilty plea in U.S. District Court, Southern District Court, New York, New
York, Mr. Otha Caldwell, a former AmeriCorps member in New York City, was
sentenced on October 29,2002, to serve two years of supervised probation, to pay a $100
court fee, and make restitution of $2,363.50 to the Corporation for National and
Community Service (Corporation).

Following an investigation by the Corporation's Office of Inspector General,
Mr. Caldwell admitted to defrauding the Corporation by falsifying two AmeriCorps
Voucher and Payment Request forms to directly obtain an Education Award in the
amount of $2,362.50 rather than having the payment sent to an educational or lending
institution.

Mr. Caldwell used the address of a relative as the mailing address for City College of
New York. When the check arrived at this misrepresented address, Mr. Caldwell
intercepted, endorsed, and cashed the $2,362.50 check.

Under Corporation rules, Education Awards cannot be paid directly to qualifying
AmeriCorps members. Awards are paid directly to qualified schools or to lending
institutions to help members payoff their student loans.
